No. 20-828

 

IN THE

Supreme Court of the Gnited States

FEDERAL BUREAU OF INVESTIGATION, ET AL.,

Petitioners,

YASSIR FAZAGA, ET AL.,

Respondents.

CERTIFICATE OF SERVICE

I, Brian R. Frazelle, do hereby declare that on September 28, 2021, as required

by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the

Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Respondents on counsel for each party to the above proceedings as follows:

Brian H. Fletcher

Acting Solicitor General
United States Dept. of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Counsel of Record for Petitioners
Federal Bureau of Investigation, et al.

Catherine Mary Agnes Carroll

Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Ave. NW
Washington, DC 20006
catherine.carroll@wilmerhale.com
(202) 663-6000

Counsel of Record for Respondents
J. Stephen Tidwell and Barbara
Walls in support of Petitioners

Ahilan T. Arulanantham
UCLA School of Law

385 Charles Young Drive East
Los Angeles, CA 90095
arulanantham@law.ucla.edu
(310) 825-1029

Counsel of Record for Respondents
Yassir Fazaga, et al.

Alexander Howard Cote

Winston & Strawn LLP

333 S. Grand Avenue, 38th Floor
Los Angeles, CA 90071
acote@winston.com

(213) 615-1993

Counsel of Record for Respondents
Paul Allen, Kevin Armstrong, and
Pat Rose in support of reversal
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 28, 2021.

ee
Boren ae

Brian R. Frazelle

Counsel for Amicus Curiae
